No. 19-939

IN THE

STEPHEN GUSTUS,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Eighth Circuit
REPLY BRIEF FOR THE PETITIONER

Nicole Lybrand
ASSISTANT FEDERAL
DEFENDER
FEDERAL DEFENDERS
OFFICE
1401 W. Capitol Ave.
Suite 490
Little Rock, AR 72201
(501) 324-6113
Nicole_Lybrand@fd.org

Eric F. Citron
Counsel of Record
GOLDSTEIN &
RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814
(202) 362-0636
ec@goldsteinrussell.com

TABLE OF CONTENTS
TABLE OF AUTHORITIES ....................................... ii
REPLY ........................................................................ 1
ARGUMENT ............................................................... 3
I.

The Government’s Own Theory Below Has
Ensured That This Case Fully Presents The
Question Whether Section 111 Requires
Specific Or General Intent ................................... 3

II. There Is A Well-Recognized Circuit Conflict
On The Question Presented ................................. 6
III. The Decision Below Is Incorrect. ......................... 9
CONCLUSION ......................................................... 12

ii
TABLE OF AUTHORITIES
Cases
United States v. Feola,
420 U.S. 671 (1975) ............................ 2, 6, 10, 11, 12
United States v. Gonzales,
931 F.3d 1219 (10th Cir. 2019) ............................7, 8
United States v. Jim,
865 F.2d 211 (9th Cir. 1989) .......................... 2, 7, 10
United States v. Kimes,
246 F.3d 800 (6th Cir. 2001) ................................... 7
United States v. Shabani,
513 U.S. 10 (1994) ................................................... 8
United States v. Simmonds,
931 F.2d 685 (10th Cir. 1991) ..............................7, 8
United States v. Williams,
504 U.S. 36 (1992) ................................................... 1
Statutes
18 U.S.C. §111 ................................................... passim
Other Authorities
Antonin Scalia & Bryan A. Garner,
Reading Law: The Interpretation of Legal Texts
(2012) ..................................................................... 10

REPLY
The government opposes certiorari on the theory
that the only question presented in this case is
whether “voluntary intoxication is a defense” for an alleged “violation of 18 U.S.C. 111(a)(1).” BIO (I). This
allows the government to deny that this case implicates the disagreement that numerous federal judges
have identified over whether Section 111 is a specificintent or general-intent offense. See Pet. 10-17. The
government represents that so narrowing the question
presented is appropriate because no question broader
than the viability of a voluntary-intoxication defense
was “pressed or passed upon below.” BIO 14 (quoting
United States v. Williams, 504 U.S. 36, 41 (1992)).
And absent this strategic gambit, the government’s opposition falls apart, because it cannot deny that numerous judges in multiple circuits have recognized
and debated the general vs. specific intent issue that
divides them, and that this case is a perfectly good vehicle for resolving the disagreement on this difficult
and important question of federal criminal law.
It is therefore a fatal problem for the government’s
opposition that its arguments for a narrower question
presented are both incorrect and unfair. Below, the
government moved in limine to suppress any argument about intoxication on the sole ground that Section 111 is a general-intent offense, and it convinced
both lower courts with that argument alone. See Mot.
In Limine, Dist. Ct. Doc. 36, at 2; Pet.App. 4a-5a, 7a8a. It is thus the government that belatedly seeks to
inject other theories on which the availability of various mental-state defenses can be divorced from the
question of Section 111(a)(1)’s intent requirement.
Meanwhile, defendant specifically preserved his

2
objection to the grant of the motion in limine in the
trial court on the ground that “evidence of intoxication
or other specific mental state as it related to his specific
intent to commit that crime … would be essential to his
defense.” Trial Tr. vol. 1, Dist. Ct. Doc. 57, at 4 (emphasis added). The only reason petitioner did not
make this trial about his broadly diminished mental
capacity “as it related to his specific intent” to commit
assault under Section 111(a)(1) is that it was entirely
clear that the government had successfully moved to
suppress such evidence below.
Correctly understood, this case plainly presents
the question whether Section 111(a)(1) is a specific-intent or general-intent offense. And while the government (tellingly) chooses the merits as its primary
ground of opposition, see BIO 5-9, it does not even contest that assault was a specific-intent offense at common law, see Pet. 23-24, nor deny that viewing Section
111(a)(1) as a general-intent offense can make federal
felonies out of either innocent conduct, see Pet. 25-26,
or the most minor misdemeanors, see id. at 26-27.
Solid textual analysis (of which the opposition contains none) demonstrates that Congress almost certainly understood Section 111 as a specific-intent
crime, see Pet. 21-22—a point the courts of appeals
have themselves recognized while (mistakenly) viewing themselves as bound to a different outcome by this
Court’s 35-year-old, purposivist decision in United
States v. Feola, 420 U.S. 671 (1975). See United States
v. Jim, 865 F.2d 211, 214-15 (9th Cir. 1989). This
Court should disabuse the lower courts of the misconception that Feola transmuted Section 111 into a general-intent offense by granting certiorari and reversing the decision below. If the government wants to

3
then raise its never-before-discussed arguments about
voluntary intoxication, it can do so at the new trial petitioner deserves.
ARGUMENT
The government’s opposition presents three arguments: (1) that the Eighth Circuit was correct and Section 111 is a general-intent offense; (2) that there is no
circuit disagreement about the availability of diminished-capacity defenses to Section 111; and (3) that no
question broader than the availability of a voluntaryintoxication defense was presented below. We address
them in reverse.
I.

The Government’s Own Theory Below Has
Ensured That This Case Fully Presents The
Question Whether Section 111 Requires Specific Or General Intent.

The government suggests that this case is a poor
vehicle for the question presented because the “court
of appeals determined only that petitioner ‘was not entitled to present a voluntary-intoxication defense’ and
did not address whether petitioner might be entitled
to present some other form of diminished-capacity defense, such as one based on his asserted ‘mental health
problems.’” BIO 13 (quoting Pet.App. 7a-8a) (internal
citations omitted). The government further argues
that there may be grounds for distinguishing between
voluntary intoxication and other diminished-capacity
defenses, and goes so far as to fault petitioner for failing to press such a theory below. BIO 13-14. This argument is incorrect and unfair.
As an initial matter, the question whether Section
111 is a specific-intent offense is squarely presented
here because that was the sole theory actually decided

4
below. It is true that the immediate consequence of
the Eighth Circuit’s decision related to Gustus’s voluntary-intoxication defense—a defense that was not
as narrow as the government represents. See infra
p.4-6. But that hardly matters: The Eighth Circuit
recognized that the issue was whether Gustus could
present evidence of intoxication to prove that he
“lacked the specific intent to assault Gonzalez,”
Pet.App. 4a, and it held that he could not for the sole
reason that Section 111(a)(1) “is a general-intent
crime,” id. at 7a. The government does not even try to
dispute that this holding—that Section 111(a)(1) is
only a general-intent offense—was necessary to the
decision below. The question raised in the petition is
thus fully presented here.
Moreover—and contrary to the government’s suggestion (at BIO 13)—the court of appeals itself recognized and rejected Gustus’s argument that he did not
have the specific intent required for the crime. See
Pet.App. 8a. In particular, Gustus had separately argued that the government had failed to prove “the
mens rea element” for his offense. Id. The Eighth Circuit chose to conceptualize this argument as “indistinguishable from his argument above that the district
court erred in preventing him from presenting a voluntary-intoxication defense.” Id. But that conceptualization only proves petitioner’s point: The Eighth
Circuit decided this case on the premise that the question whether a voluntary-intoxication defense was permitted was entirely a question of what “mens rea element” the statute imposes. Put another way, Gustus
plainly argued that the statute requires specific intent
and the Eighth Circuit plainly held otherwise, and the

5
government presents no reason why that holding
should be ignored for present purposes.
The foregoing suffices to demonstrate that the
question whether specific intent is required for a Section 111(a)(1) conviction was both pressed and passed
upon in the court of appeals. But the district court record makes it even more clear that Gustus articulated
the question much more broadly than the government
suggests. The transcript speaks for itself.
MS. LYBRAND [counsel for Gustus]: Your
Honor, I understand that the Court has
granted the Government’s motion in limine
and ruled that this crime that Mr. Gustus is
charged with is not a specific intent crime …
The defense would maintain that it is a specific intent crime …. As a result of that, the
defendant should be allowed to present and
would present evidence of intoxication or
other specific mental state as it related to his
specific intent to commit that crime. It would
be essential to his defense. So I would maintain the objection to the Court granting the
Government’s motion on that issue.
THE COURT: Your objection is noted. It’s
overruled, and your exception is saved.
Trial Tr. vol. 1, Dist. Ct. Doc. 57, at 3-4 (emphasis
added). Simply put, it was clear to all involved what
had happened: The government had sought to exclude
evidence of intoxication on the theory that Section 111
required only general intent, the district court had
agreed, and Gustus had recognized (correctly) that
this prevented him from making any kind of presentation about “mental state as it related to his specific

6
intent to commit that crime”—a presentation that was
“essential to his defense.” Id. at 4. It is on that precise
error—described entirely in terms of the statute’s intent requirement—that Gustus now petitions for certiorari.
Finally, it would be enormously unfair to allow
the government to escape a ruling from this Court on
the question whether Section 111(a)(1) requires specific intent based on the argument that Gustus has
failed to raise other theories on which evidence of diminished mental capacity might be admissible. See
BIO 13-14. The government sought and obtained a
ruling that Section 111(a)(1) is a general-intent crime
by making this the sole theory of its motion in limine
below. See Mot. In Limine, Dist. Ct. Doc. 36, at 2. In
so doing, it openly acknowledged that this very holding was the subject of a circuit disagreement, and
asked the Eighth Circuit to join what it described as
the “majority” view. See Pet. 11 (quoting multiple government briefs). The government then got just the
binding precedent it asked for, and while that rule unquestionably governs the presentation of a voluntaryintoxication defense and other theories of diminished
capacity, it also plainly dictates the mental state required for a conviction. Having asked that another
circuit formally adopt the (mis)conception that Feola
makes Section 111(a)(1) a general-intent offense, the
government is in no position to deny that this case is
an appropriate vehicle for reviewing that very determination.
II. There Is A Well-Recognized Circuit Conflict
On The Question Presented.
Once the government’s effort to unduly narrow the
question presented is rejected, its arguments against

7
the existence of a circuit disagreement are easily rejected too. In particular, the government does not even
attempt to address the many opinions in which the
courts of appeals have recognized their conflicting
views on whether Section 111(a)(1) requires general or
specific intent. See Pet. 10 (noting Pet.App. 12a;
United States v. Kimes, 246 F.3d 800, 808 (6th Cir.
2001); and Jim, 865 F.2d at 213). Indeed, the government itself acknowledged below that there is a disagreement on this question, and affirmatively asked the
Eighth Circuit to adopt the “majority” view. See Gov’t
C.A. Br. 18-19 (“Of the circuits to have considered
whether Section 111 criminal assault is a general intent crime, the vast majority hold that it is.”). The government should not now be heard to dispute the existence of the disagreement it identified below.
Moreover, while the government errs in denying
that other circuits would have come to different conclusions in this case, it is also worth noting that it does
not dispute that there are well-reasoned opinions on
both sides. That includes Judge Kelly’s concurrence
below and Judge Merritt’s dissent in Kimes, along
with the Tenth Circuit’s helpful and contrary recent
decision in United States v. Gonzales, 931 F.3d 1219
(10th Cir. 2019). See infra p.8 (discussing Gonzales).
It is thus undisputed that—at the very least—the conflicting views among federal judges on the question
presented have ripened the issue for this Court’s certiorari review.
Meanwhile, the government fares no better in disputing whether the Tenth Circuit would have sided
with petitioner here. It was almost 30 years ago that
the Tenth Circuit endorsed a “standard specific intent
instruction” for Section 111.
United States v.

8
Simmonds, 931 F.2d 685, 689 (10th Cir. 1991). The
government identifies no contrary precedent since,
pointing only to a 1975 decision that concerned only
the allegations required for a Section 111 indictment.
See BIO 11. The government does not dispute that the
Tenth Circuit’s current pattern jury instruction mirrors the specific-intent formulation of the common
law. See Pet. 13-14 (explaining common-law formulation); BIO 12-13 (acknowledging requirement in both
Tenth and Fifth Circuit pattern instruction). The government is thus starting from behind, even if it could
offer a meaningful distinction of Gonzales.
But, perhaps most importantly, the government
cannot distinguish Gonzales. In that case, the Tenth
Circuit addressed the question of specific vs. general
intent in the context of the parallel provision of the
Sentencing Guidelines. Gonzales, 931 F.3d at 122021. And relying heavily on the common-law understanding of assault, it held that Guidelines Section
3A1.2(c)(1) requires specific intent. Id. at 1221-22.
The government says in response that this guideline’s
“text is substantially different,” BIO 12, but it does not
attempt to explain how it is different, much less why
any textual differences would matter—particularly to
the common-law question that the Tenth Circuit resolved in favor of petitioner’s argument and that this
Court has consistently emphasized. See, e.g., United
States v. Shabani, 513 U.S. 10, 13-14 (1994). Put another way, the government provides no reasonable basis on which a panel of the Tenth Circuit could read its
decision in Gonzales and then go on to hold that Section 111(a)(1) does not require the specific intent that
is required for the parallel guidelines enhancement.

9
This Court can thus safely conclude that no such basis
exists.
Relatedly, the government errs in rejecting the
import of the Tenth and Fifth Circuit pattern jury instructions on the grounds that the Eighth Circuit has
the same instruction. See BIO 12-13. As Judge Kelly
explained below, those pattern instructions clearly
“are consistent with [the] view” that “the defendant
must have acted with specific intent.” Pet.App. 14a.
The Eighth Circuit’s position on this issue was unusually muddied by its conflicting precedent; the positions
of the Fifth and Tenth Circuits are not. See Pet.App.
7a-8a (holding that court was bound to adopt “the earliest of the conflicting opinions” it had adopted on the
question). And, relatedly, the Eighth Circuit did not
address the import of its pattern instructions only because it viewed itself as bound by its earliest precedent
on point. See id.; compare id. at 14a-15a (Kelly, J.,
concurring). In short, there is every reason to believe
that circuits describing Section 111 as a specific-intent
offense and imposing pattern instructions in line with
the common law’s specific-intent requirement would
adhere to the view that a Section 111 conviction requires specific intent. Contra BIO 11-13.
There is thus a split that demands resolution
here—one that has developed the arguments on both
sides of the question and led to conflicting requirements in different jurisdictions. This Court should not
delay resolution of this conflict any longer.
III. The Decision Below Is Incorrect.
Given that conflict, this case should be granted
without regard to which side is right—a point the government perhaps implicitly acknowledges by trying to

10
jump to the merits first. See BIO 4-9. It is nonetheless
clear that the majority view on this question is wrong,
and is an unfortunate byproduct of certain dicta in
Feola that only this Court can now correct. The government’s merits arguments are remarkably weak,
and this perhaps explains why the government is so
loath to see this Court review the very holding it invited below.
Most critically, while the government acknowledges that Section 111 is silent about specific vs. general intent, BIO 6, it has no way to dispute that the
common law speaks loud and clear. In fact, the petition flagged the expert observation, from no less an authority than Justice Scalia, that the “age old principle
… that words undefined in a statute are to be interpreted and applied according to their common-law
meanings …. has been applied to such terms as assault.” Antonin Scalia & Bryan A. Garner, Reading
Law: The Interpretation of Legal Texts 320 (2012) (emphasis added). The government is silent in response:
It has absolutely no explanation for how it can (1)
acknowledge the statute’s lack of a definition and then
(2) leave the common-law definition undisputed without (3) conceding that Section 111(a)(1)’s intent requirement must incorporate the common law’s requirement of specific intent.
To be sure, the government’s lack of persuasive
textual arguments is not surprising. Even as it concluded that it was bound by Feola to hold otherwise,
the Ninth Circuit observed that a specific-intent requirement is the better textual view. See Pet. 13 (quoting Jim, 865 F.2d at 213-14). Yet this is a particularly
good reason to grant review—where the courts of appeals feel bound by this Court’s precedents to adopt a

11
view they themselves believe contrary to the best reading of the text, this Court has a responsibility to set
the record straight.
Meanwhile, when it comes to Feola, the very best
the government can do is contest whether it “all but
holds that ‘the substantive offense’ under §111 is not a
general-intent crime.” BIO 7 (quoting Pet. 20). But
this is not what the government needs to prove: It is
petitioner’s point that Feola’s dicta on a different statutory requirement should not be read to control the
outcome here. All petitioner asks is that Section 111
be read according to its text and the longstanding common-law definition of assault, and not distorted by
Feola’s outdated purposivist analysis. So unless Feola
does control (which the government seems to deny), it
is petitioner who will ultimately prevail.
In any event, petitioner has the better reading of
Feola as well. When Feola says that Section 111 still
requires “the intent of the actor to accomplish the result that is made criminal,” 420 U.S. at 692 (emphasis
added), it is clearly using the language of specific intent. See Pet. 3-4 (explaining the well-worn distinction between intending the action and the result). The
government’s contrary argument assumes its own
conclusion—it reads Feola as having held that general
intent suffices because Section 111 will still have “a
requirement of mens rea as to each of its elements,”
when the whole point is that Feola can only be comfortable making this observation because it assumes
that the substantive assault element requires specific
intent. See Pet. 18-20; contra BIO 8. Ultimately, this
Court can read and interpret Feola for itself. All petitioner asks is that the Court do so by granting certiorari and releasing the lower courts from a misreading

12
of Feola that has required them to go against the best
view of the text.
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
Nicole Lybrand
ASSISTANT FEDERAL
DEFENDER
FEDERAL DEFENDERS
OFFICE
1401 W. Capitol Ave.
Suite 490
Little Rock, AR 72201
(501) 324-6113
Nicole_Lybrand@fd.org
June 2, 2020

Eric F. Citron
Counsel of Record
GOLDSTEIN &
RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814
(202) 362-0636
ec@goldsteinrussell.com

